                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                             Office of Audits

                                      Middle East Region Operations



                                      Compliance Followup Review of

                                  Department of State Actions To Reduce

                                the Risk of Trafficking in Persons Violations

                                 in Four States in the Cooperation Council

                                       for the Arab States of the Gulf


                                                  AUD-MERO-12-47, September 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     1 express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General
                                    UNCLASSIFIED





Acronyms
A/OPE 	    Bureau of Administration, Office of the Procurement Executive
A/LM/AQM 	 Bureau of Administration, Office of Logistics Management, Office of
           Acquisitions Management
COR 	      contracting officer’s representative
DOSAR	     Department of State Acquisition Regulations
FAH 	      Foreign Affairs Handbook
FAM 	      Foreign Affairs Manual
FAR 	      Federal Acquisition Regulation
FSI 	      Foreign Service Institute
OIG 	      Office of Inspector General
PIB 	      Procurement Information Bulletin
TIP 	      trafficking in persons
UAE	       United Arab Emirates




                                    UNCLASSIFIED

                                                         UNCLASSIFIED



                                                       Table of Contents 

Section                                                                                                                                 Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................3 


Compliance Review Objectives .......................................................................................................4 


Compliance Review Results ............................................................................................................5 

      MERO-I-11-06 Recommendation 1 ....................................................................................5 

      MERO-I-11-06 Recommendation 2 ....................................................................................6 

      MERO-I-11-06 Recommendation 3 ....................................................................................7 

      MERO-I-11-06 Recommendation 4 ..................................................................................10 

      MERO-I-11-06 Recommendation 5 ..................................................................................12 

      MERO-I-11-06 Recommendation 6 ..................................................................................13 

      MERO-I-11-06 Recommendation 7 ..................................................................................14 


New Recommendations .................................................................................................................17 


Appendices
      A. Scope and Methodology................................................................................................21 

      B. Procurement Information Bulletin No. 2012-10 ...........................................................23 

      C. Procurement Information Bulletin No. 2011-09 ...........................................................28 

      D. Embassy Abu Dhabi Response .....................................................................................33 

      E. Embassy Kuwait City Response ....................................................................................36 

      F. Embassy Muscat Response ............................................................................................38 

      G. Office of the Procurement Executive Response ...........................................................41 


Major Contributors to This Report ................................................................................................42 





                                                         UNCLASSIFIED

                                                   UNCLASSIFIED


                                               Executive Summary
        In January 2011, the Office of Inspector General (OIG) issued the report Performance
Evaluation of Department of State Contracts to Assess the Risk of Trafficking in Persons
Violations in Four States in the Cooperation Council for the Arab States of the Gulf (MERO-I-
11-06). MERO-I-11-06 reported on Department of State (Department) efforts to combat
trafficking in persons (TIP) at Embassy Abu Dhabi, United Arab Emirates (UAE); Embassy
Kuwait City, Kuwait; Embassy Muscat, Oman; Embassy Riyadh, Saudi Arabia; and Consulates
General in Dhahran, Saudi Arabia, and Dubai, UAE. In the report, OIG identified a number of
contractor practices that increased the risk that TIP could occur and issued seven
recommendations to the embassies and consulates general and to the Bureau of Administration,
Office of the Procurement Executive (A/OPE). Those recommendations, listed in the
Background section, addressed the need to improve employment and living conditions for
foreign workers of those contractors and to improve contract monitoring for potential TIP
violations. The objectives of this compliance review were to assess the Department’s actions to
implement the seven recommendations and to determine whether the recommendations should
be closed or reissued.

       OIG determined that the Department had taken sufficient actions to close three of the
MERO-I-11-06 recommendations. OIG closed Recommendation 1, finding that the embassies
had obtained and transmitted country-specific passport retention laws to their respective
contractors. OIG closed Recommendation 3 based on improvements in the living conditions for
gardeners in Riyadh. OIG closed Recommendation 7 based on guidance and training that
A/OPE and the Foreign Service Institute (FSI)1 had developed to guide contracting officer’s
representatives (COR) monitoring for potential TIP violations.

        OIG determined that the Department had not taken sufficient actions to close the other
four MERO-I-11-06 recommendations. For Recommendation 2, each embassy had requested
that contractors provide proof of compliance with host-country labor laws, but none had
collected that proof or independently verified compliance with such laws. Recommendations 4,
5, and 6 stated that on future labor solicitations, the four embassies should include requirements
for contractor-provided housing, English and native language translations of their employment
contracts, and information on host-country and U.S. labor laws and policies. However, as of
July 2012, only Embassies Kuwait City and Riyadh had solicited and awarded new contracts,
and the embassies did not require contractors to provide housing plans or information on labor
laws and policies to foreign workers. Embassies Abu Dhabi and Muscat and Consulates General
Dhahran and Dubai had not solicited a new contract since OIG issued MERO-I-11-06. Because
OIG could not close Recommendations 2, 4, 5, and 6 for Embassies Abu Dhabi, Muscat, and
Riyadh or Recommendations 2 and 6 for Embassy Kuwait City, those recommendations are
being reissued in this report. In addition, OIG made one new recommendation to Embassy
Riyadh and two new recommendations to A/OPE based on issues identified during the
compliance review. The new recommendations concern unsafe contractor-provided housing for

1
    FSI is the primary training institution for the U.S. foreign affairs community.



                                                             1

                                                   UNCLASSIFIED
                                                UNCLASSIFIED


janitors in Dhahran, Saudi Arabia, and clarification of guidance on monitoring contracts for
potential TIP violations.

       On August 16, 2012, OIG provided Embassies Abu Dhabi, Kuwait City, Muscat, and
Riyadh and the Bureau of Administration a draft of this report requesting comments on the 11
reissued and new recommendations. OIG received comments from Embassy Abu Dhabi (see
Appendix D), Embassy Kuwait City (see Appendix E), Embassy Muscat (see Appendix F), and
A/OPE (see Appendix G).

        Embassy Abu Dhabi did not concur with Recommendation 1, stating that CORs at post
do not have the capability to monitor all service contracts to ensure compliance with local labor
laws. However, Embassy Abu Dhabi also stated that the UAE annually requires commercial
companies to demonstrate their compliance with local labor and other laws. The embassy
requires that contractors provide copies of their annual commercial certifications before contracts
are awarded or renewed. Since such a requirement provides a basis for implementing
Recommendation 1, OIG considers Embassy Abu Dhabi to have met the intent of the
recommendation and therefore considers Recommendation 1 resolved. This recommendation
can be closed when OIG reviews and accepts documentation showing that Embassy Abu Dhabi
routinely collects contractors’ commercial certifications.

        The embassies and A/OPE concurred with Recommendations 2–6 and 10 and 11, and
OIG considers those recommendations resolved. Recommendation 2 can be closed when OIG
reviews and accepts documentation showing that Embassy Abu Dhabi has implemented a
process for incorporating language addressing each of the elements in the recommendation into
the statements of work of future contracts. Recommendations 3 and 4 can be closed for Embassy
Kuwait when OIG reviews and accepts documentation showing that the embassy has a fully
functioning monitoring policy (Recommendation 3) and ensures that statements of work for
future contracts include requirements outlined in Procurement Information Bulletins
(PIB) 2011-092 and 2012-103 (Recommendation 4). Recommendations 5 and 6 can be closed for
Embassy Muscat when OIG reviews and accepts documentation showing that the embassy has
implemented processes for monitoring contractor compliance with local laws
(Recommendation 5) and for ensuring that statements of work for future service contracts
include language addressing each of the elements in Recommendation 6.
Recommendations 10 and 11 can be closed when OIG reviews documentation showing that
A/OPE has clarified guidance on passport retention in PIB 2012-10 (Recommendation 10) and
has revised PIB 2011-09 to require CORs to implement TIP monitoring strategies
(Recommendation 11).

      Embassy Riyadh did not provide a response to the draft report. OIG considers
Recommendations 7–9 unresolved and requests that Embassy Riyadh respond to the three
recommendations.

2
    PIB 2011-09, “Combating Trafficking in Persons,” March 24, 2011. 

3
    PIB 2012-10, “Contractor Recruitment of Third Country Nationals,” February 28, 2012. 




                                                          2

                                                UNCLASSIFIED
                                       UNCLASSIFIED



                                         Background
In November 2009, OIG initiated an evaluation of the Department’s efforts to combat TIP in four
Arab States—Kuwait, Oman, Saudi Arabia, and the UAE. Those four Arab States were selected
for the evaluation, in part, because they were the Middle East states (outside of Afghanistan,
Iraq, and Pakistan) that received the most U.S. contract funding during FYs 2007–2009 while
receiving proportionally little funding for TIP-prevention programs. The resulting OIG report,
MERO-I-11-06, stated that OIG found no direct evidence that contractors had violated the
Trafficking Victims Protection Act of 2000 or the Federal Acquisition Regulation (FAR) for the
six contracts reviewed. However, OIG identified a number of contractor practices that increased
the risk that TIP could occur. The report also stated that TIP monitoring was ineffective because
the FAR, the Foreign Affairs Manual (FAM), the Foreign Affairs Handbook (FAH), and
standard contract language failed to address how the COR should monitor for TIP-related issues.
MERO-I-11-06 contained the following seven recommendations to reduce the risk of TIP and to
improve TIP monitoring:

   Recommendation 1. Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and
   Embassy Riyadh should obtain information about host country regulations regarding passport
   retention and discuss these regulations with all contractors employing foreign workers.

   Recommendation 2. Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and
   Embassy Riyadh should monitor all service contracts to ensure compliance with current host-
   country labor laws and request proof of compliance from contractors as necessary.

   Recommendation 3. Embassy Riyadh, in consultation with the Office of Acquisitions
   Management, should inform the gardening contractor that keeping workers in unsafe housing
   is unacceptable to the U.S. Government.

   Recommendation 4. Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and
   Embassy Riyadh, in consultation with the Office of Acquisitions Management, should, on
   future solicitations, require contractors to include detailed descriptions of housing
   accommodations provided for foreign workers and require periodic inspections of foreign
   workers’ housing by the contracting officer’s representative.

   Recommendation 5. Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and
   Embassy Riyadh, in consultation with the Office of Acquisitions Management, should, on
   future solicitations, require contractors to provide workers with standard contracts in English
   and their native language that include policies on wages, overtime rates, allowances, salary
   increases, the contract term, leave accrual, and other personnel matters.

   Recommendation 6. Embassy Abu Dhabi, Embassy Kuwait City, Embassy Muscat, and
   Embassy Riyadh, in consultation with the Office of Acquisitions Management, should, on
   future solicitations, require contractors to provide workers with written information about


                                                3

                                       UNCLASSIFIED
                                                UNCLASSIFIED


    labor laws, including the U.S. Government’s “zero tolerance” policy toward trafficking in
    persons, in workers’ native languages.

    Recommendation 7. The Bureau of Administration, Office of the Procurement Executive,
    should provide detailed guidance for contracting officer’s representatives on how to monitor
    contractors’ practices and activities for potential trafficking in persons violations. The
    Office, in consultation with the Foreign Service Institute, should develop and implement
    training curricula covering this guidance.

        When OIG initiated this compliance review in December 2011, Recommendation 7 was
closed and Recommendations 1–6 were resolved. OIG considers a recommendation
“unresolved,” “resolved,” or “closed” based on the actions that the Department has taken or
plans to take with respect to the recommendation.4 An unresolved recommendation is one in
which the Department has neither taken actions nor stated how it plans to implement the
recommendation. A resolved recommendation is one in which the Department has stated how it
plans to implement the recommendation or one in which the Department has begun, but not yet
completed, actions to fully implement the recommendation. A closed recommendation is one in
which the Department has completed actions necessary to implement the recommendation, and
no additional action is required.

        OIG closed Recommendation 7 in July 2011 based on actions taken by A/OPE and FSI to
issue guidance and develop training courses on monitoring contractors for potential TIP
violations. OIG resolved Recommendations 1–6 based on action plans submitted in February
and November 2011 by Embassies Abu Dhabi, Kuwait City, Muscat, and Riyadh that detailed
how they planned to implement those recommendations. Closing Recommendations 1, 2, 4, 5,
and 6 required that all four embassies separately complete actions to implement the
recommendations. Although one embassy may have taken sufficient action to close its portion
of a recommendation, another embassy may not have taken action or may not have had the
opportunity to do so.

                                    Compliance Review Objectives
       The objectives of this compliance review were (1) to verify the actions taken by A/OPE,
FSI, and U.S. Missions to Kuwait, Oman, Saudi Arabia, and the UAE to implement the seven
recommendations contained in the OIG report Performance Evaluation of Department of State
Contracts to Assess the Risk of Trafficking in Persons Violations in Four States in the


4
  Office of Management and Budget Circular A-50 Revised, “Audit Follow-up,” Sept. 29, 1982. The circular
requires that Federal agencies “assure the prompt and proper resolution and implementation of audit
recommendations” made by Inspectors General, other executive branch audit organizations, the Government
Accountability Office, and non-Federal auditors. Sections 1, 5, and 8a(2) and (3) of the circular further require that
agencies (1) resolve recommendations within a maximum of 6 months after the issuance of a final report; (2)
implement corrective actions as rapidly as possible; and (3) specify criteria for proper resolution and corrective
actions that provide for written plans for corrective actions with specified action dates, where appropriate.



                                                          4

                                                UNCLASSIFIED
                                              UNCLASSIFIED


Cooperation Council for the Arab States of the Gulf (MERO-I-11-06, January 2011) and (2) to
determine whether those recommendations should be closed or reissued.

                                     Compliance Review Results
MERO-I-11-06 Recommendation 1. Embassy Abu Dhabi, Embassy Kuwait City, Embassy
Muscat, and Embassy Riyadh should obtain information about host country regulations regarding
passport retention and discuss these regulations with all contractors employing foreign workers.

        Background: OIG made this recommendation after determining that embassy and
consulate general contractors were retaining employee passports. Retention of employee
passports is prohibited in each of the four countries either by a host-country law or through
participation in international agreements.5 Contractor officials stated that they retained the
passports because of a lack of secure storage space at employee camps, extensive year-round
host-government reporting requirements, and employees’ ability to obtain other government-
issued identification. However, over one-third of the 75 contractor employees interviewed stated
that the contractor had not informed them why or under what conditions the passports had been
retained.

        In their responses to MERO-I-11-06, officials at all four embassies stated that they had
taken steps to implement the recommendation. Embassy Abu Dhabi officials stated that they
would include discussions of passport retention in post-award orientation meetings. Embassy
Muscat officials stated that they would continue to work with contractors to ensure that
employee passports were not retained. Officials at Embassy Kuwait City and Embassy Riyadh
stated they each had discussed passport retention laws and practices with their respective
contractors.

       Compliance Review Results: OIG verified that officials from all four embassies had
obtained and transmitted host-country regulations regarding passport retention to their respective
contractors. In addition, in February 2012, A/OPE issued PIB 2012-10, which includes guidance
on passport retention.6 (PIB 2012-10 is in Appendix B).7 Specifically, the PIB requires that
contracting officers include language in contracts relying on foreign employees that prohibits

5
  Laws and agreements: Kingdom of Saudi Arabia Council of Ministers Decision 166 Article 3 and Kuwait
Ministry of Social Affairs and Labor (MOSAL) Decree 60/2007 (18 July 2007). Sultanate of Oman Ministry of
Manpower Circular (Nov. 2006) states that contractors may “only retain the passports of expatriate employees in
execution of a court order.” Kuwait, Oman, Saudi Arabia, and the UAE are signatories to the International Labour
Organization Convention on the Abolition of Forced Labour, under which the retention of workers’ passports is a
violation of the agreement.
6
  Although the workers on which OIG focused this review originated from countries other than the United States
and/or the country to which they were assigned for duty, the workers were not considered “third-country nationals,”
as defined in 3 FAM 7271.1, because they were not directly employed by the U.S. Government as foreign service
nationals. To avoid confusion, OIG refers to these employees as “foreign workers” or “foreign employees” or
“employees” or “workers.”
7
  PIB 2012-10 includes a modified version of a questionnaire OIG applied during fieldwork for MERO-I-11-06.
The questionnaire is reprinted in Appendix B. OIG did not apply that questionnaire when completing this review.



                                                         5

                                              UNCLASSIFIED
                                        UNCLASSIFIED


contractors from retaining employee passports and other identification documents longer than
48 hours without the employees’ consent.

        Although Embassy officials met the intent of the recommendation by obtaining and
transmitting passport retention regulations to their contractors, OIG determined that the
contractors continued to retain employees’ passports, which was in violation of PIB 2012-10 and
host-country laws and agreements. Contractor employees stated that the contractors return the
passports if an employee needs to travel home or renew a work permit. Contractor employees in
Kuwait, Oman, and Saudi Arabia stated they had few difficulties in obtaining their passports
upon request. However, contractor employees in the UAE stated it often took more than 2 days
before the passports were returned.

        Status: OIG closed MERO-I-11-06 Recommendation 1 based on actions taken by
embassy officials and A/OPE. However, because the contractors continued to retain employee
passports in violation of PIB 2012-10 and host-country laws, OIG is recommending that A/OPE
clarify guidance on passport retention found in PIB 2012-10 to ensure that Department contracts
do not authorize a contractor to engage in a practice that is otherwise illegal in a given country.
For example, the PIB allows contractors to hold passports up to 48 hours or longer with the
employees’ consent; however, passport retention for any period, even with employees’ consent,
is prohibited in Kuwait, Saudi Arabia, and the UAE. (The new recommendation is in the section
“New Recommendations.”)

MERO-I-11-06 Recommendation 2. Embassy Abu Dhabi, Embassy Kuwait City, Embassy
Muscat, and Embassy Riyadh should monitor all service contracts to ensure compliance with
current host-country labor laws and request proof of compliance from contractors as necessary.

       Background: OIG made this recommendation to ensure that monies withheld from
contractor employees’ paychecks were used to comply with host-country labor laws.
Specifically, OIG determined that the contractors were deducting money from their employees’
paychecks but were not providing the employees adequate explanations for the deductions.
Further, the contractors did not always maintain adequate records to support that the deductions
were in accordance with host-country labor laws.

        In their responses to MERO-I-11-06, embassy officials stated they had requested that the
contractors provide documentation to support compliance with host-country labor laws.
Embassy Abu Dhabi officials also requested that the contractors provide copies of commercial
licenses, which are renewed annually. Embassy officials explained that to obtain or renew a
UAE commercial license, companies must submit documentation demonstrating their
compliance with host-country labor, safety, and other laws. Embassy Abu Dhabi officials also
stated that as part of the solicitation process, offerors were required to provide a copy of their
commercial license, indicating that they were in full compliance with local labor and other laws.

       Compliance Review Results: OIG determined that embassy officials had not received
supporting documentation from the contractors to prove compliance with host-country labor laws
and were not actively monitoring contracts to confirm compliance. Embassy officials stated that

                                                 6

                                        UNCLASSIFIED
                                            UNCLASSIFIED


their purchasing and management officials did not have sufficient guidance from A/OPE and the
Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), on monitoring contractor compliance with host-country labor laws and that they
lacked time and adequate staff to conduct monitoring activities. Further, embassy officials in
Kuwait and Abu Dhabi stated that they were unsure whether additional action was warranted
because a Department of State Acquisition Regulations (DOSAR) clause, mandatory for all
contracts, already required contractors to certify compliance with all laws, decrees, labor
standards, and regulations of the host country.8

       After MERO-I-11-06 was issued, A/OPE issued PIB 2011-09, which includes a
monitoring strategy for ensuring that contractors are knowledgeable about host-country labor
laws. (PIB 2011-09 is in Appendix C.) However, PIB 2011-09 was issued as “suggested,” not
mandatory, guidance, which may limit its use.

        Status: OIG modified MERO-I-11-06 Recommendation 2 and is reissuing it to all four
embassies as a new recommendation. OIG agrees that DOSAR clause 652.242-73 contains a
requirement for contractors to comply fully with all host-country laws; however, the intent of the
original recommendation was to ensure that embassy officials were actively monitoring the
contractors to ensure compliance. OIG is also recommending that the Department revise
PIB 2011-09 to make the guidance mandatory so that embassies will be required to implement
the monitoring strategy as stated in the PIB. (The new recommendations are in the section “New
Recommendations.”)

MERO-I-11-06 Recommendation 3. Embassy Riyadh, in consultation with the Office of
Acquisitions Management, should inform the gardening contractor that keeping workers in
unsafe housing is unacceptable to the U.S. Government.

        Background: OIG made this recommendation in response to the contractor employees’
housing conditions in Riyadh, Saudi Arabia. Specifically, the embassy’s 19 gardeners were
sharing a dilapidated apartment building with numerous fire and safety hazards, including exposed,
frayed wiring; extensive water damage; and mice and insect infestation. In addition, of the apartment
building’s three bathrooms, only one had a working sink, one had a broken toilet and an uncovered
floor drain, and one small bathroom had a washing machine that partially blocked access to the toilet.

       In its response to MERO-I-11-06, Embassy Riyadh reported that the COR visits the
gardening contractor residences every 6 months and that post is assured the housing meets all
requirements.

        Compliance Review Results: OIG verified that the living conditions at the gardening
contractor’s new housing facility in Riyadh were markedly better than the conditions in which
the employees had lived previously. At the time of OIG’s compliance review, employees were
living in a two-story villa that had been subdivided into four apartments. Each apartment had a

8
    DOSAR 652.242-73, “Authorization and Performance.”



                                                         7

                                            UNCLASSIFIED
                                             UNCLASSIFIED


living room, a dining area, four bedrooms measuring approximately 15 x 23 feet each, two
bathrooms, and window-mounted air conditioners. Each apartment could accommodate up to
28 employees, with up to seven people sharing a bedroom. The villa property included a security
fence, an outdoor shower, and a storage area, and several stores were within walking distance.
The contracting officer and the COR in Riyadh were visiting the apartments every 6 months to
ensure that the housing was safe and continued to be acceptable. According to the COR, the
visits reinforced the importance of suitable and safe housing conditions.

        Although living conditions for gardening employees in Riyadh had improved, the living
conditions for janitorial employees in Dhahran, Saudi Arabia, were dilapidated, unsanitary,
unsafe, cramped, and located on the roof of the company’s administration building in Dammam.9
Unsanitary kitchen and bathing facilities, exposed wiring, and a lack of privacy and personal
space are shown in Figures 1–3.




                       Figure 1. Toilet facilities collocated with outdoor kitchen and
                       laundry facilities in Dammam, Saudi Arabia. (OIG photo)




9
    Dammam is a suburb of Dhahran.



                                                      8

                                             UNCLASSIFIED
                        UNCLASSIFIED





Figure 2. Shared kitchen facility at worker housing in Dammam,
Saudi Arabia. (OIG photo)




Figure 3. Wiring exposed to the elements at worker housing in
Dammam, Saudi Arabia. (OIG photo)




                                 9

                        UNCLASSIFIED
                                        UNCLASSIFIED


        Status: OIG closed MERO-I-11-06 Recommendation 3 because the living conditions in
Riyadh had improved. However, because of the employee living conditions observed for
janitorial workers in Dhahran, OIG is issuing a new recommendation for Embassy Riyadh to
inform the janitorial contractor for Consulate General Dhahran that keeping workers in unsafe
housing is unacceptable to the U.S. Government. (The new recommendation is in the section
“New Recommendations.”)

MERO-I-11-06 Recommendation 4: Embassy Abu Dhabi, Embassy Kuwait City, Embassy
Muscat, and Embassy Riyadh, in consultation with the Office of Acquisitions Management,
should, on future solicitations, require contractors to include detailed descriptions of housing
accommodations provided for foreign workers and require periodic inspections of foreign
workers’ housing by the contracting officer’s representative.

        Background: OIG made this recommendation to address overall housing concerns. Of
the 75 contractor employees interviewed during fieldwork for MERO-I-11-06, more than 70
percent reported that their housing was overcrowded, unsafe, or unsanitary. For example, OIG
reported that two-thirds of the housing it toured was within space parameters of a U.S. minimum
security prison cell.

       In their responses to MERO-I-11-06, embassy officials stated that all newly issued
contract solicitations and awards would require the contractor to provide descriptions of
contractor-provided housing for its foreign workers.

       In addition to the actions taken by the embassies, PIB 2012-10 requires contractors to
submit housing plans as part of their offers if they intend to provide housing for foreign workers.
The contractors must provide the location and a description of the proposed housing and must
demonstrate that the intended housing meets all applicable housing and safety standards and
codes or explains any variance. The PIB requires that each employee have a minimum of
50 square feet of personal space unless the contracting officer grants a waiver. Along with the
housing plan, the PIB requires that all contractor-provided housing be inspected at least
semiannually.

       Compliance Review Results: OIG could not verify that Embassies Abu Dhabi or
Muscat had met the intent of the recommendation because those embassies had not issued a
contract solicitation or award since MERO-I-11-06 was issued.

        Embassy Kuwait partially met the intent of the recommendation when awarding contracts
in March and June 2012 for janitorial services and school bus drivers, respectively. The
solicitation for janitorial services included a requirement for a housing plan; however, the
embassy did not require the eventual awardee to submit a plan as part of the offer, nor was a
written description of housing accommodations included in the contract. Although embassy




                                                10

                                        UNCLASSIFIED
                                            UNCLASSIFIED


officials toured the housing prior to awarding the contract, the embassy did not receive written
descriptions of the offerors’ housing plans or incorporate a written housing plan in the contract.10

         The solicitation for the school bus drivers did not specifically require submission of a
housing plan; however, PIB 2012-10 was included as an attachment to the contract. PIB 2012-
10 requires that an acceptable housing plan be submitted for contracts exceeding $150,000 in
which contractors provide housing for non-professional labor. The PIB also requires that CORs
evaluate contractor compliance with the housing plan by conducting random inspections on at
least a semiannual basis. Embassy Kuwait officials stated that during the proposal review
process, the COR toured and took photographs of the intended worker housing and notified the
offerers that he would make periodic unannounced site inspections after the contract was
awarded.

        Embassy Riyadh also partially met the intent of the recommendation in its May 2012
travel management services contract, which relies on foreign workers for labor. The contract
solicitation required that offerors who intended to provide worker housing or housing allowances
demonstrate how the proposed housing or allowances complied with Saudi laws and regulations.
Although the contractor provides employees with a housing allowance, the contract contained no
reference to the housing allowance or certification from the contractor that it had complied with
Saudi laws and regulations. In addition, embassy officials stated there was no documentation on
file demonstrating that the contractor had complied with the solicitation requirement. Moreover,
the officials stated that since the contracting officer who executed the contract was no longer at
post, they could not verify whether the contractor had complied with the requirement.

        OIG verified that contracting officers and CORs in Kuwait, Oman, Saudi Arabia, and the
UAE had conducted some housing inspections but not on a routine basis. Embassy officials in
Kuwait and Oman and Consulate General officials in Dhahran each had conducted one
inspection during January and February 2011, both of which occurred during OIG fieldwork.
Officials in Riyadh conducted four inspections from January 2011 to February 2012. Officials at
Embassy Abu Dhabi stated that they had reviewed housing accommodations but that they had
neither a schedule to regularly check housing nor criteria from which to base decisions of
housing quality. Officials from all four embassies stated that A/OPE and A/LM/AQM needed to
issue standards for those inspections so that the inspections would be consistent across the
Department.

       Status: OIG modified Recommendation 4 and is reissuing it to all four embassies as a
new recommendation. The intent of the original recommendation was to ensure that contractors
provided safe and secure housing to their employees, that contractors and the Department agreed
on housing standards, and that contractors complied with those standards after contract award.
Although Embassy Kuwait City officials conducted preaward inspections of contractor housing,
they did not enforce contract solicitation or PIB 2012-10 requirements that contractors should

10
   This housing assessment occurred while OIG conducted its fieldwork in Kuwait City, and OIG team members
attended the inspection as observers.



                                                     11

                                            UNCLASSIFIED
                                        UNCLASSIFIED


submit written housing plans prior to contract award. In addition, although Embassy Riyadh
required contractors to certify that housing and allowances provided for workers complied with
Saudi laws, it is unclear whether the contractor provided such a certification. (The new
recommendations are in the section “New Recommendations.”)

MERO-I-11-06 Recommendation 5: Embassy Abu Dhabi, Embassy Kuwait City, Embassy
Muscat, and Embassy Riyadh, in consultation with the Office of Acquisitions Management,
should, on future solicitations, require contractors to provide workers with standard contracts in
English and their native language that include policies on wages, overtime rates, allowances,
salary increases, the contract term, leave accrual, and other personnel matters.

        Background: OIG made this recommendation to address deceptive recruitment practices
caused, in part, by the inability of contractor employees to read and understand the terms and
conditions of their employment contract. In their responses to MERO-I-11-06, embassy officials
stated that they would require contractors to provide their employees with English and native-
language versions of employment contracts and that they would also include language in all
contract solicitations requiring the contractors to provide employees with policies on wages,
overtime rates, allowances, leave accrual, and other personnel matters.

       Compliance Review Results: OIG could not verify that Embassies Abu Dhabi or
Muscat had met the intent of the recommendation because those embassies had not issued a new
contract solicitation or award since MERO-I-11-06 was issued.

        Embassy Kuwait City’s February 2012 solicitation for a new janitorial services contract
required that workers be provided copies of their employment contracts in their native languages.
However, the requirement was not included in the contract as awarded in May 2012. In June
2012, the embassy awarded a school bus driver services contract, which included PIB 2012-10 as
an attachment. PIB 2012-10 requires contractors to provide the employees signed contracts in
English and in their native languages. The PIB further states that the content of the employment
contracts should “define the terms of employment, compensation, job description, and benefits.
Contracts must be provided prior to employee departure from their countries of origin.”

        Embassy Riyadh did not meet the intent of the recommendation because neither its
solicitation nor the subsequent May 2012 travel management services contract required that the
contractor provide workers with employment contracts in both English and the workers’ native
languages. The General Services Officer in Riyadh stated that each of the travel management
workers received an employment contract written in English and that English fluency was a
requirement for these positions.

         Status: OIG closed MERO-I-11-06 Recommendation 5 for Embassy Kuwait City based
on its inclusion of the PIB 2012-10 requirement in the school bus driver’s contract. For
Embassies Abu Dhabi, Muscat, and Riyadh, OIG has modified Recommendation 5 and is
reissuing it to those embassies as a new recommendation. (The new recommendations are in the
section “New Recommendations.”)


                                                12

                                        UNCLASSIFIED
                                               UNCLASSIFIED


MERO-I-11-06 Recommendation 6: Embassy Abu Dhabi, Embassy Kuwait City, Embassy
Muscat, and Embassy Riyadh, in consultation with the Office of Acquisitions Management,
should, on future solicitations, require contractors to provide workers with written information
about labor laws, including the U.S. Government’s “zero tolerance” policy toward trafficking in
persons, in workers’ native languages.

         Background: OIG made this recommendation because 40 of the 75 workers OIG
interviewed during fieldwork for MERO-I-11-06 stated that they were unaware of local labor
laws and only 16 stated that they had received contractor-provided labor law training upon
arrival in country. In addition, OIG found no evidence that contractors were notifying contract
employees of TIP policies as required by FAR clause 52.222-50, “Combating Trafficking in
Persons.” FAR clause 52.222-50 states that contractors are required to notify employees of the
following: (1) the U.S. Government’s zero tolerance policy11 regarding TIP, (2) prohibited
activities such as procuring a commercial sex act or using forced labor, and (3) actions that may
be taken against the contractors for violations.

        In their responses to MERO-I-11-06, embassy officials stated that they would include
requirements in future contract solicitations for contractors to provide their employees with
written information on host-country labor laws and the U.S. Government’s zero tolerance policy
toward TIP.

       Compliance Review Results: OIG could not verify that Embassies Abu Dhabi or
Muscat had met the intent of the recommendation because those embassies had not issued a
contract solicitation or award since report MERO-I-11-06 was issued.

        OIG determined that Embassy Kuwait had partially met the intent of the
recommendation. Specifically, Embassy Kuwait’s school bus driver contract required that the
contractor document that it had provided to all employees a brochure entitled “Know Your
Rights”12 and briefed employees on the requirements of FAR 52.222-50. The contract also
stated that the contractor must display posters in worker housing on how to report TIP violations
to the company and the company’s obligation to forward reported violations to the contracting
officer. However, the contract did not require the contractor to provide workers with written
information on local labor laws.

        Embassy Riyadh did not meet the intent of the recommendation. Neither the solicitation
nor the May 2012 award for Embassy Riyadh’s travel management services contract required the

11
   National Security Presidential Directive 22, “Combating Trafficking in Persons,” issued on Dec. 16, 2002, states,
“The United States hereby adopts a ‘zero tolerance’ policy regarding U.S. Government employees and contractor
personnel representing the United States abroad who engage in trafficking in persons.”
12
   The “Know Your Rights” brochure is available at http://travel.state.gov/visa/temp/pamphlet/pamphlet_4578.html
in English, Arabic, Chinese, Creole, Portuguese, Russian, Spanish, Tagalog, and Ukrainian versions. The brochure
includes a definition of human trafficking, references to U.S. laws and regulations prohibiting TIP, descriptions of
warning signs that may indicate human trafficking is occurring, frequently asked questions for reporting potential
abuses, and available services for trafficking victims.



                                                         13

                                               UNCLASSIFIED
                                        UNCLASSIFIED


contractor to provide its workers with written information on local labor laws and regulations.
Both the solicitation and the contract included references to FAR 52.222-50. However, the FAR
does not specify the method for transmitting the information, and neither the solicitation nor the
contract stated that the information should be provided in writing in employees’ native
languages. The General Services Officer at Embassy Riyadh reported that contracted travel
management employees confirmed that the contractor provided them with information on local
labor laws, but he did not state whether this information was provided orally or in written format.

        Although it had not issued a contract solicitation or award, Embassy Muscat took steps to
translate Omani labor laws into all of the native languages of its contracted workers and had
distributed the translations of these laws to all foreign workers employed by embassy
contractors. However, on contracts in Kuwait, Saudi Arabia, and the UAE in effect during
OIG’s review, OIG found that the information on labor laws and workers rights that contractors
had provided to their workers was limited. OIG found that all contractors had hung posters and
signs in multiple languages in employee housing; however, the posters and signs addressed
company housing policies and did not address labor issues. OIG also found that only two of the
contractors provided employees written general information on labor laws and rights. U.S.
Government personnel and contractors at Embassies Abu Dhabi, Kuwait City, and Riyadh and
Consulates General Dhahran and Dubai stated that they were unclear as to which laws needed to
be distributed and into which languages those laws should be translated. They further stated that
because of the number of laws and the various languages involved, translations would be
burdensome and costly. Staff at all six posts, including Embassy Muscat, also stated they were
not convinced the effort would be commensurate with the return, noting that many of the
workers could not read.

        Status: OIG modified MERO-I-11-06 Recommendation 6 and is reissuing it to all four
embassies as a new recommendation. The intent of Recommendation 6 was to make contractors
responsible for providing their workers with written information about labor laws and the U.S.
Government’s zero tolerance policy toward TIP in workers’ native languages. The actions taken
by Embassy Muscat to provide translations are commendable, but completing and providing
such translations should be the contractor’s responsibility. Although neither of Embassy Kuwait
City’s contracts had required contractors to provide workers with written information on local
labor laws, the most recent contract did require the contractor to provide information about the
U.S. Government’s zero tolerance policy. Therefore, OIG is reissuing only the portion of the
recommendation on labor laws to Embassy Kuwait City. (The new recommendations are in the
section “New Recommendations.”)

MERO-I-11-06 Recommendation 7. The Bureau of Administration, Office of the Procurement
Executive, should provide detailed guidance for contracting officer’s representatives on how to
monitor contractors’ practices and activities for potential trafficking in persons violations. The
Office, in consultation with the Foreign Service Institute, should develop and implement training
curricula covering this guidance.

      Background: OIG made this recommendation after determining that Federal and
Departmental guidance did not address how to monitor contracts for TIP violations. In addition,

                                                14

                                        UNCLASSIFIED
                                              UNCLASSIFIED


OIG determined that FSI did not consistently include TIP awareness and education in its course
offerings for procurement and contract administration personnel.

       In response to MERO-I-11-06, A/OPE and FSI officials stated that they would
incorporate TIP discussions into the COR training, as well as into the Contracting Officer’s
Representative Handbook.13 In subsequent correspondence, A/OPE officials stated that A/OPE
had chaired a working group to improve COR effectiveness in the Department by revising COR
guidance in the FAH and the FSI’s COR course to include training on monitoring for potential
TIP violations.

       OIG Review Results: OIG verified that A/OPE and FSI had made significant progress
in providing guidance to procurement professionals and to CORs on TIP and on how to monitor
contractors’ practices and activities for potential TIP violations. Specifically, A/OPE released
PIBs 2011-09 and 2012-10, which addressed the Department’s zero tolerance policy on TIP and
the Department’s requirements for contractors hiring foreign workers as well as incorporating
TIP policies and monitoring practices into Department regulations and training courses.

        In March 2011, A/OPE issued PIB 2011-09, which reiterates the U.S. Government’s zero
tolerance policy toward engagement in TIP by any recipient of Department funds. The PIB also
provides guidance to CORs for monitoring Department contracts for signs of TIP, including
passport retention, threats to compel labor or sexual activity, knowledge of local labor laws,
labor policies, advice to employees on salary deductions, the adequacy of workers’ housing, and
potential TIP violations.

        In December 2011, A/OPE completed updates for two FAH sections to include contract
administration and COR monitoring tools relevant to TIP prevention (14 FAH-2 H-516, “Post-
Award Orientation and Conference,” and 14 FAH-2 H-524, “Preventing Trafficking in Persons,”
respectively). These sections provide guidance for post-award orientation meetings between
Department officials responsible for setting contract requirements and officials responsible for
administering the contract. A goal of the post-award orientation is to guarantee that all
individuals are aware of their responsibilities and roles in protecting workers’ rights. These FAH
sections outline topics of discussion for these meetings, including briefing contractors and
employees on U.S. Government and Department policies on TIP, to include the zero tolerance
policies and other items outlined in the March 2011 PIB. The FAH also explains the severity of
the consequences for contractors engaging in TIP, including termination for default.

        Finally, in February 2012, A/OPE issued PIB 2012-10, which provides new contract
requirements and additional guidance for monitoring Department contracts exceeding $150,000
that rely on foreign workers for labor. The PIB requires that contractors relying on foreign
workers submit a recruitment plan and a housing plan if applicable. The PIB also provides
guidance and requirements for contractor retention of workers’ passports, recruiting practices,


13
     14 FAH-2, “Contracting Officer’s Representative Handbook.”



                                                       15

                                              UNCLASSIFIED
                                       UNCLASSIFIED


housing and safety standards, language for workers’ employment contracts, and briefings for
employees on their rights.

        A/OPE has worked with FSI to incorporate TIP awareness and education in a variety of
its course offerings for procurement and contract administration personnel. For example, FSI
developed or expanded training modules focused on TIP for its required courses for CORs and
General Services Officers. During OIG’s evaluation, FSI was also revising the course “How To
Be a Contracting Officer” and the course “Diplomatic Security Contracting Officer’s
Representative” to incorporate TIP modules.

        FSI staff stated that they had participated in multidisciplinary working groups to develop
additional ways to disseminate TIP information to domestic and overseas Department staff. For
example, during OIG’s evaluation, one team was developing a distance learning course
exclusively addressing contracting and TIP issues, enabling access for new students and other
students from any location. In addition, FSI was working to adapt the Department of Homeland
Security’s online course “Human Trafficking Awareness Training” for the Department. FSI staff
stated that the training would be made available once it was compatible with Department
standards and systems.

     Status: OIG closed MERO-I-11-06 Recommendation 7 based on the actions taken by
A/OPE and FSI.




                                               16

                                       UNCLASSIFIED
                                        UNCLASSIFIED


                                  New Recommendations

Recommendation 1. OIG recommends that Embassy Abu Dhabi establish and implement a
monitoring process for service contracts to ensure compliance with host-country labor laws and
contractor-provided housing plans.

        Management Response: Embassy Abu Dhabi did not concur with Recommendation 1,
stating that although Department contracts require contractors to comply with local laws and
regulations, it is beyond the capabilities of the post’s CORs to identify all host-country labor
laws and monitor for compliance. The embassy also stated that it is concerned that taking on
responsibility for monitoring and “ensuring compliance” with host-country labor laws will result
in the contractors’ relying on post for the currency and interpretation of local law. The embassy
therefore recommended that compliance with local law be an element of post-award orientation
meetings, with the contractors being responsible for advising the CORs of their knowledge and
interpretation of host-country labor laws.

         OIG Reply: OIG disagrees that it is beyond the CORs’ responsibilities to monitor and
ensure compliance with local labor laws. CORs are responsible for ensuring that the contractor
complies with all contract terms and conditions. Department of State Acquisition Regulations
clause 652.242-73 requires the contractor to comply with all local labor laws; therefore, the COR
is responsible for ensuring such compliance. OIG agrees that it is important to have contractors
attest that they will observe local labor laws, whether in writing or verbally at post-award
orientation meetings, as such attestations provide expectations to the contractors. However, the
attestations do not constitute independent verification that the contractor actually observes the
laws.

        In its comments on Recommendation 2, Embassy Abu Dhabi stated that commercial
companies registered in the UAE are required to annually submit documents that demonstrate
their compliance with local labor and other laws and that the embassy requires contractors to
provide copies of the commercial certification before a contract is awarded or renewed. Since
such requirements provide a basis for implementing Recommendation 1, OIG considers
Recommendation 1 resolved. This recommendation can be closed when OIG reviews and
accepts documentation showing that Embassy Abu Dhabi routinely collects contractors’
commercial certifications.

Recommendation 2. OIG recommends that Embassy Abu Dhabi establish a process to ensure
that statements of work for service contracts include requirements that contractors should
provide detailed descriptions of housing accommodations for foreign workers; provide workers
with standard contracts in English and workers’ native languages that include policies on wages,
overtime rates, allowances, salary increases, the contract term, leave accrual, and other personnel
matters; provide workers with written information, in workers’ native languages, on relevant
United Arab Emirates labor laws; and provide workers with written information, in workers’
native languages, about the U.S. Government’s zero tolerance policy toward trafficking in
persons.


                                                17

                                        UNCLASSIFIED
                                        UNCLASSIFIED

        Management Response: Embassy Abu Dhabi concurred with Recommendation 2,
stating that it would include language in future solicitations that follows A/LM/AQM guidance.
The embassy also stated it would provide information to contractors on the U.S. Government’s
zero tolerance policy once the Department provides these documents to post in the required
languages.

        OIG Reply: Based on Embassy Abu Dhabi’s statement that it will include language in
future solicitations that follow A/LM/AQM guidance, OIG considers Recommendation 2
resolved. This recommendation can be closed when OIG reviews and accepts documentation
showing that Embassy Abu Dhabi has implemented a process for incorporating language
addressing each of the elements in the recommendation into the statements of work of future
contracts.

        OIG does not consider it necessary for the Department to provide information on the U.S.
Government’s zero tolerance policy to the embassy. The intent of the recommendation was to
require the contractor to provide that information to its employees. Once Embassy Abu Dhabi
includes the required language in its solicitations, the contractor will be responsible for providing
the information in its employees’ native languages.

Recommendation 3. OIG recommends that Embassy Kuwait City establish and implement a
monitoring process for service contracts to ensure that contractors comply with host country
labor laws and contractor-provided housing plans.

Recommendation 4. OIG recommends that Embassy Kuwait City establish a process to ensure
that statements of work for service contracts include requirements that contractors should
provide detailed descriptions of housing accommodations for foreign workers and provide
workers with written information, in workers’ native languages, on relevant Kuwaiti labor laws.

       Management Response: Embassy Kuwait City concurred with
Recommendations 3 and 4, stating that it has established a fully functioning monitoring policy
and has committed to ensuring that statements of work for future contracts include the necessary
language from PIBs 2011-09 and 2012-10.

        OIG Reply: OIG considers Recommendations 3 and 4 resolved. The recommendations
can be closed when OIG reviews and accepts documentation showing that the embassy has a
fully functioning monitoring policy (Recommendation 3) and implements a process for ensuring
that statements of work for future service contracts include the requirements outlined in PIBs
2011-09 and 2012-10 (Recommendation 4).

Recommendation 5. OIG recommends that Embassy Muscat establish and implement a
monitoring process for service contracts to ensure that contractors comply with host country
labor laws and contractor-provided housing plans.

Recommendation 6. OIG recommends that Embassy Muscat establish a process to ensure that
statements of work for service contracts include requirements that contractors should provide

                                                 18

                                        UNCLASSIFIED
                                        UNCLASSIFIED


detailed descriptions of housing accommodations for foreign workers; provide workers with
standard contracts in English and workers’ native languages that include policies on wages,
overtime rates, allowances, salary increases, the contract terms, leave accrual, and other
personnel matters; provide workers with written information, in workers’ native languages, on
relevant Omani labor laws; and provide workers with written information, in workers’ native
languages, about the U.S. Government’s zero tolerance policy toward trafficking in persons.

        Management Response: Embassy Muscat concurred with Recommendation 5, stating
that contracting officers or CORs will visit each service contractor’s living quarters and conduct
interviews with contractor employees on a semi-annual basis to ensure compliance with local
labor standards. Embassy Muscat also concurred with Recommendation 6, stating that it
requested that existing contractors provide detailed descriptions of employee housing; provide
workers with standard contracts in English and their native languages that include policies on
wages, overtime rates, allowances, salary increases, the contract terms, leave accrual, and other
personnel matters; provide workers with written information, in workers’ native languages, on
relevant Omani labor laws; and provide workers with written information, in workers’ native
languages, about the U.S. Government’s zero tolerance policy on trafficking in persons. The
embassy also stated that future contract solicitations would include each of the items listed in the
recommendation as mandatory requirements for contract awards.

        OIG Reply: OIG considers Recommendations 5 and 6 resolved. These
recommendations can be closed when OIG reviews and accepts documentation showing that the
embassy has established and implemented processes for monitoring contractor compliance with
local laws (Recommendation 5) and for ensuring that statements of work for future service
contracts include language addressing each of the elements specified (Recommendation 6).

Recommendation 7. OIG recommends that Embassy Riyadh establish and implement a
monitoring process for service contracts to ensure that contractors comply with host country
labor laws and contractor-provided housing plans.

Recommendation 8. OIG recommends that Embassy Riyadh establish a process to ensure that
statements of work for service contracts include requirements that contractors should provide
detailed descriptions of housing accommodations for foreign workers; provide workers with
standard contracts in English and workers’ native languages that include policies on wages,
overtime rates, allowances, salary increases, the contract terms, leave accrual, and other
personnel matters; provide workers with written information, in workers’ native languages, on
relevant Saudi Arabia labor laws; and provide workers with written information, in workers’
native languages, about the U.S. Government’s zero tolerance policy toward trafficking in
persons.

Recommendation 9. OIG recommends that Embassy Riyadh inform the janitorial contractor in
Dhahran that keeping workers in unsafe housing is unacceptable to the U.S. Government.

       Management Response: Embassy Riyadh did not provide a response to the draft report.


                                                 19

                                        UNCLASSIFIED
                                       UNCLASSIFIED


       OIG Reply: OIG considers Recommendations 7–9 unresolved, and Embassy Riyadh is
requested to respond to the three recommendations.

Recommendation 10. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, clarify guidance on passport retention found in Procurement Information
Bulletin 2012-10, “Contractor Recruitment of Third Country Nationals,” to ensure that
Department of State contracts do not authorize a contractor to engage in a practice that is
otherwise illegal in a given country.

Recommendation 11. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, revise Procurement Information Bulletin 2011-09, “Combating
Trafficking in Persons,” to make the guidance mandatory so that contracting officer’s
representatives are required to implement the monitoring strategy as stated in the Procurement
Information Bulletin.

         Management Response: A/OPE concurred with Recommendations 10 and 11, stating
that it would clarify guidance on passport retention as outlined in PIB 2012-10 and on
implementing monitoring strategies as outlined in PIB 2011-09.

        OIG Reply: OIG considers Recommendations 10 and 11 resolved. These
recommendations can be closed when OIG reviews documentation showing that A/OPE has
clarified guidance on passport retention in PIB 2012-10 (Recommendation 10) and has revised
PIB 2011-09 to require CORs to implement TIP monitoring strategies (Recommendation 11).




                                               20

                                       UNCLASSIFIED
                                          UNCLASSIFIED



                                                                                           Appendix A

                                    Scope and Methodology

        The objectives of this compliance review were (1) to verify the actions taken by the
Bureau of Administration’s Office of the Procurement Executive (A/OPE), the Foreign Service
Institute ( FSI), and U.S. Missions to Kuwait, Oman, Saudi Arabia, and the United Arab
Emirates (UAE) to implement the seven recommendations contained in the Office of Inspector
General (OIG) January 2011 report Performance Evaluation of Department of State Contracts to
Assess the Risk of Trafficking in Persons Violations in Four States in the Cooperation Council
for the Arab States of the Gulf (MERO-I-11-06) and (2) to determine whether the
recommendations should be closed or reissued.

        To assess actions taken to implement Recommendations 1–6, OIG conducted overseas
fieldwork from February to March 2012. The fieldwork was conducted at the U.S. embassies in
Abu Dhabi, UAE; Kuwait City, Kuwait; Muscat, Oman; and Riyadh, Saudi Arabia and at
consulates general in Dhahran, Saudi Arabia and Dubai, UAE. At the six posts, OIG met with
embassy and consulate staff responsible for monitoring contractor performance, collected and
reviewed documentation related to implementing the report recommendations, interviewed
contractors and workers on company policies and procedures, and toured contractor-provided
housing. In addition, OIG reviewed the solicitations and awards for two contracts awarded by
Embassy Kuwait City in May and June 2012 and one contract awarded by Embassy Riyadh in
May 2012, which were the only contracts solicited and awarded after MERO-I-11-06 was
issued.1 OIG did not explicitly review to determine whether actual trafficking in persons (TIP)
violations were occurring.

        To assess actions taken to implement Recommendation 7, OIG met with A/OPE
managers and FSI administrators and instructors in Washington, DC, on efforts to provide
additional information on TIP monitoring. OIG also reviewed documents that included
Procurement Information Bulletins, updated sections of the Foreign Affairs Handbook that
discussed TIP-related policies and guidance, TIP and other contracting requirements required by
the Federal Acquisition Regulation and the Department of State Acquisition Regulations, and
course materials for new FSI training courses and modules on monitoring contracts for
indications of TIP.

       OIG conducted this review from December 2011 to July 2012 in accordance with the
Quality Standards for Inspection and Evaluation, issued in January 2011 by the Council of the
Inspectors General on Integrity and Efficiency. OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the review objectives.


1
 See SKU200-12-C-0504, awarded March 6, 2012; SKU200-12-D-0500, awarded June 21, 2012; and S-SA700-12-
D-0001, awarded May 1, 2012. Embassy Abu Dhabi and Consulate General Dubai each awarded a single contract
before MERO-I-11-06 was issued; however, solicitations for each of those contracts predated the report.



                                                   21

                                          UNCLASSIFIED
                                      UNCLASSIFIED



Review of Internal Controls

      OIG did not assess the adequacy of internal controls related to the area reviewed.

Use of Computer-Processed Data

      OIG did not used computer-generated data to complete this review.




                                              22

                                      UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                      Appendix B

                       Procurement Information Bulletin No. 2012-10




OFFICE OF THE PROCUREMENT EXECUTIVE
PROCUREMENT INFORMATION BULLETIN NO. 2012-10

SUBJECT:       Contractor Recruitment of Third-Country Nationals



1. Scope: This Procurement Information Bulletin (PIB) is applicable to all domestic and overseas
contracting activities and Regional Procurement Support Offices.
2. Background: The Department of State employs contractors to support mission objectives
throughout the world. Some contractors recruit third country nationals for contract performance
and import labor. These contracts may create a risk of abusive labor practices leading to potential
illegal trafficking in persons. This Procurement Information Bulletin provides a clause and
procedures to reduce this risk.
3. Responsibilities:
    a. Clauses: The clause Recruitment of Third Country Nationals for Performance on
    Department of State Contracts (see attachment 1) shall be included in any solicitation and
    contract (including commercial items) valued over $150,000 requiring non-professional
    labor where contract performance will require recruitment of third country national labor
    specifically for contract performance
    b. Proposal content and evaluation: Contractors shall submit Recruitment and Housing
    Plans as appropriate. Contracts shall only be awarded to contractors submitting acceptable
    plans.
    c. Monitoring: Contracting Officer Representatives (CORs) shall evaluate Housing Plan
    compliance with random, at least semi-annual inspections. Bureau of Overseas Buildings
    Operations (OBO) CORs shall follow OBO inspection protocols for inspection of
    Temporary Labor Camps specifically established for execution of the project. The OBO
    inspections shall be coordinated with Regional Security Officers to ensure the safety of
    inspection personnel. Inspections should include a common sense evaluation of living
    conditions taking into account local standards, contract requirements, and the contractor’s
    Housing Plan. CORs may contract for inspection service support if needed to assist in
    monitoring responsibilities, and may consider local government inspection and certification
    of housing if available, but final evaluation and determination of acceptability rests with the
    COR. Recruitment conditions can be verified by COR employee interviews using the


                                                23

                                        UNCLASSIFIED
                                       UNCLASSIFIED


    Interview Questionnaire (attachment 2) derived from OIG reviews or other questions as
    appropriate.
4. Questions: Questions can be directed to (b)   (6)                             at 703-875-
(b) (6) fax 703-875-6155, or by e-mail at(b)   (6) @state.gov 2 5. Effective Date: This PIB is
effective immediately.
___2/28/2012___               _____________/ / / signed / / /_____________
       Date                                    Corey M. Rindner
                                               Procurement Executive
Distribution:
A/OPE Staff
All Domestic and Overseas Heads of Contracting Activities
All Directors, Regional Procurement Support Offices All Directors, Narcotics Affairs Sections
A/SDBU – (b) (6)
A – (b) (6)
J/TIP- (b) (6)
L/BA – (b) (6)
M/FSI/SPS/AMT – (b) (6)

DRAFTER:(b) (6) /x5(b) (6)/2/3/2012 

Document: O:\AOPE\Cross cutting projects\PIB\2012\PIB 2012 Signed 

Clearance: A/OPE/EAD – (b)
 (6)
A/OPE/PD – (b)
     (6)
A/LM/AQM – (b)  
    (6)
A/LM-
(b) (6)
L/BA – (b)
        
    (6)
G/TIP – (b)
         
    (6)
Regional Bureaus: 

EUR-I/O/EX-
(b) (6)
WHA/EX-
(b) (6)
EAP/EX-
(b) (6)
NEA/SCA/EX- (b)   
   (6)
AF/EX: (b)
         
    (6)
INL/EX:(b)
   (6)
DS/EX: 
(b)   (6)
OBO: (b)
      
     (6)




                                                 24

                                       UNCLASSIFIED
                                       UNCLASSIFIED



Attachment 1: Recruitment of Third Country Nationals for Performance on Department of
                                   State Contracts

  RECRUITMENT OF THIRD COUNTRY NATIONALS FOR PERFORMANCE ON 

                      DEPARTMENT OF STATE CONTRACTS

                                 (February 28, 2012) 


1. On contracts exceeding $150,000 where performance will require the recruitment of non-
professional third country nationals, the offeror is required to submit a Recruitment Plan as part
of the proposal. Contractors providing employer furnished housing are required to submit a
Housing Plan.

2. Recruitment Plan

    a. State the anticipated number of workers to be recruited, the skills they are expected to
    have, and the country or countries from which the contractor intends to recruit them.

    b. Explain how the contractor intends to attract candidates and the recruitment strategy
    including the recruiter.

    c. Provide sample recruitment agreement in English.

    d. State in the offer that the recruited employee will not be charged recruitment or any
    similar fees. The contractor or employer pays the recruitment fees for the worker if recruited
    by the contractor or subcontractor to work specifically on Department of State jobs.

    e. State in the offer that the contractor’s recruitment practices comply with recruiting nation
    and host country labor laws.

    f. State in the offer that the contractor has read and understands the requirements of FAR
    52.222-50 Combating Trafficking in Persons.

    g. Contractor and subcontractors shall only use bona fide licensed recruitment companies.
    Recruitment companies shall only use bona fide employees and not independent agents.

    h. Contractor will advise the Contracting Officer of any changes to the Recruitment Plan
    during performance.

3. The offeror will submit a Housing Plan if the contractor intends to provide employer
furnished housing for TCNs. The Housing Plan must describe the location and description of the
proposed housing. Contractors must state in their offer that housing meets host country housing
and safety standards and local codes or explain any variance. Contractor shall comply with any
Temporary Labor Camp standards contained in this contract. In contracts without a Temporary
Labor Camp standard, fifty square feet is the minimum amount of space per person without a
Contracting Officer waiver. Contractor shall submit proposed changes to their Housing Plan to
the Contracting Officer for approval.

                                                25

                                       UNCLASSIFIED
                                        UNCLASSIFIED




4. Department of State contractor and subcontractors will treat employees with respect and
dignity by taking the following actions:
    a. Contractor may not hold employee passports and other identification documents longer
    than 48 hours without employee concurrence. Contractors and subcontractors are reminded
    of the prohibition contained in Title 18, United States Code, Section 1592, against
    knowingly destroying, concealing, removing, confiscating, or possessing any actual or
    purported passport or other immigration document to prevent or restrict the person’s liberty
    to move or travel in order to maintain the services of that person, when the person is or has
    been a victim of a severe form of trafficking in persons.
    b. Contractor shall provide employees with signed copies of the/their employment contracts,
    in English and the employee’s native language, that define the terms of employment,
    compensation, job description, and benefits. Contracts must be provided prior to employee
    departure from their countries of origin.
    c. Contractor shall provide all employees with a “Know Your Rights” brochure and
    document that employees have been briefed on the contents of the brochure. The English
    language version is available at http://www.state.gov/g/tip or from the Contracting Officer.
    d. Contractor shall brief employees on the requirements of the FAR 52.222-50 Combating
    Trafficking in Persons including the requirements against commercial sex even in countries
    where it is legal and shall provide a copy of the briefing to the Contracting Officer
    Representative (COR).
    e. Contractor shall display posters in worker housing advising employees in English and the
    dominant language of the Third Country Nationals being housed of the requirement to
    report violations of Trafficking in Persons to the company and the company’s obligation to
    report to the Contracting Officer. The poster shall also indicate that reports can also be
    submitted to the Office of the Inspector General (OIG) Hotline at 202-647-3320 or 1-800-
    409-9926 or via email at OIGHOTLINE@STATE.GOV.
    f. Contractor and subcontractors shall comply with sending and receiving nation laws regarding
    transit, entry, exit, visas, and work permits. Contractors are responsible for repatriation of
    workers imported for contract performance.
    g. Contractor will monitor subcontractor compliance at all tiers. This includes verification that
    subcontractors are aware of, and understand, the requirements of FAR 52.222-50 Combating
    Trafficking in Persons and this clause. Contractors specifically agree to allow U.S. Government
    personnel access to contractor and subcontractor personnel, records, and housing for audit of
    compliance with these requirements.
    h. The contractor agrees to include this clause in all subcontracts over $150,000 involving
    recruitment of third country national for subcontractor performance.




                                                 26

                                        UNCLASSIFIED
                                       UNCLASSIFIED



                  Attachment 2: OIG Employee Interview Questionnaire



Recruitment 1                                                                      Response
1a. How did you find out about this job? (friend, colleague, newspaper,            1a.
recruiter)
1b. If there was a recruiter, was he honest about the job? (pay, hours, danger)    1b.
1c. Do you owe money to the recruiter such as a recruitment fee? (yes, no, I       1c.
don’t know). If yes, is it a large amount? Is it reasonable? Did you have to pay
for anything like your plane ticket?
1d. Are there problems if you can’t pay right away? (financially, legally,         1d.
family)
1e. Did you have to sign an agreement or contract? What was in the agreement?      1e.
1f. Why did you take the job? Did you take long deciding? (good money,             1f.
adventure, bad family situation)
1g. Did you feel pressured to take the job by the recruiter? If so, in what way?   1g.
(financially, family)
Work 2
2a. Is the job what you expected? What is different?                               2a.
2b. Were there other benefits promised? Have you received the benefits yet?        2b.
2c. How many hours do you work? Are the pay and hours what you expected?           2c.
2d. Do you get breaks? How long? How many?                                         2d.
2e. Tell me what it is like to work with your supervisors?                         2e.
2f. Are you allowed to socialize with your co-workers?                             2f.
2g. What kind of information about human rights and ethical conduct have you       2g.
received?
Pay 3
3a. How much are you paid?                                                         3a.
3b. How are you paid? Are there additional fees for check cashing or wiring?       3b.
How much?
Isolation 4
4a. Do you get to keep money and identification on you? Where is your              4a.
passport?
4b. If you have a problem, can you contact the host country government? How        4b.
would you do that?
4c. Can you end your contract early? What is the penalty?                          4c.
4d. Would you like to renew your contract? If not, why? If so, why?                4d.




                                               27

                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix C

                   Procurement Information Bulletin No. 2011-09



OFFICE OF THE PROCUREMENT EXECUTIVE
PROCUREMENT INFORMATION BULLETIN NO. 2011-09

SUBJECT:      Combating Trafficking in Persons


       1. Scope: This Procurement Information Bulletin (PIB) is applicable to all domestic and
overseas contracting activities and Regional Procurement Support Offices.

        2. Background: The Department of State employs contractors to support mission
objectives throughout the world. Trafficking in persons (TIP) encompasses a variety of illegal
and exploitative practices that occur throughout the world. The U.S. Government has a zero
tolerance policy towards engagement in TIP by any recipient of federal funds. Every instance
must be reviewed and addressed. FAR 52.222-50, Combating Trafficking in Persons, sets
government-wide requirements for preventing these practices. This PIB provides guidance to
Contracting Officers and Contracting Officer’s Representatives (CORs) on how to monitor
contracts for TIP compliance.

       3. Responsibilities:

              a. Solicitation and contract clauses: Contracting Officers and CORs must
       ensure that all solicitations and contracts over the micro-purchase threshold (currently
       $3,000), including all options, contain the clause at FAR 52.222-50, Preventing
       Trafficking in Persons. FAR 52.222-50 would be included in Section I for Uniform
       Contract Format solicitations and contracts. It is already included in the clause FAR
       52.212-5 for commercial item solicitations and contracts;

               b. Proposal content and evaluation requirement: Whenever there is a
       potential for employer-provided housing (such as use of third country nationals), the
       Contracting Officer must include in the solicitation a requirement for a housing plan.
       The requirement would state that contractors providing such housing as part of contract
       performance must provide a housing plan as part of their quote or proposal. The housing
       plan must clearly demonstrate that the Contractor-provided housing will be in accordance
       with all applicable local laws, as well as adequate to attract and retain employees; and

              c. Contracting Officer and COR monitoring: See Attachment 1, Contracting
       Officer and Contracting Officer Representative (COR) TIP Responsibilities, for guidance
       on how Contracting Officers and CORs can monitor TIP compliance. Contracting


                                               28

                                       UNCLASSIFIED
                                       UNCLASSIFIED


       Officers and CORs should review this guidance and structure a monitoring program using
       as many of these suggestions as feasible.

       4. Questions: Questions can be directed to (b)   (6)                          at 703-
516-(b) (6) fax 703-875-6155, or by e-mail.

       5. Effective Date: This PIB is effective immediately.



___03/24/2011___                     _____________/ / / signed / / /_____________
      Date                             Corey M. Rindner
                                          Procurement Executive



Distribution:
A/OPE Staff
All Domestic and Overseas Heads of Contracting Activities
All Directors, Regional Procurement Support Offices
All Directors, Narcotics Affairs Sections
A/SDBU – (b) (6)    (b) (6)

A – (b) (6)
L/BA – (b) (6)
M/FSI/SPS/AMT –(b) (6)


DRAFTER:(b) (6) x6(b) (6) 01-28-2011
Document:G:\Cross cutting projects\pib\2011\2011-09.doc

Clearance:     A/OPE/EAD – (b) (6)
               A/OPE/PD – (b) (6)
               A/LM/AQM – (b) (6)
               L/BA – (b) (6)
               G/TIP – (b) (6)
               Regional Bureaus:
                      EUR-I/O/EX- (b) (6)
                      WHA/EX- (b) (6)
                      EAP/EX- (b) (6)
                      NEA/SCA/EX- (b) (6)
               INL/EX: (b) (6)
               DS/EX: (b) (6)
               OBO: (b) (6)




                                              29

                                       UNCLASSIFIED
                                        UNCLASSIFIED



                  Attachment 1: Contracting Officer and Contracting Officer 

                  Representative (COR) Responsibilities for Monitoring TIP 


Both the Contracting Officer and the COR play important roles in preventing TIP. The
following are suggested actions a Contracting Officer or a COR can take to minimize the risk of
TIP on their contract. Contracting Officers and CORs should review these suggestions and utilize
those techniques appropriate to their situation:
1. 	Pre-Solicitation:
    a.	 TIP Clause: Ensure contracts contain the required Trafficking in Persons clause, FAR
        52.222-50 “Combating Trafficking in Persons”. Contact the Contracting Officer if it is
        missing. Provide the clause in full text to ensure contractors understand clause
        requirements if needed. Contracting Officers are responsible for including the clause in
        all contracts over the micro-purchase threshold;
    b.	 TIP Risk Assessment: Contact the Trafficking in Persons (TIP) Official at the post to
        assess the nature and level of TIP threats at place of performance. Review the
        Trafficking in Persons Report by the Office of Combating Trafficking in Persons
        (G/TIP). Determine if the program is at greater risk of TIP because of low wage labor,
        use of third country nationals, employer provided housing, or use of recruiters;
    c.	 Local Labor Law Assessment: Get information on local labor laws from Human
        Resources, Political Section or other sources. Local labor laws may prevent a Contractor
        from charging workers for obtaining work permits, may require payment of minimum
        wages and benefits, may prevent outside, non-sanctioned employment, or may define
        acceptable conditions for employer furnished housing; and
    d.	 Assess Contractor provided housing: Ensure solicitations include a requirement for
        contractors to submit a housing plan when required by page 1, paragraph 3(b) of this PIB.
        Contact the Contracting Officer if the requirement is missing. Contracting Officers are
        responsible for including this requirement in solicitations when there is a potential for
        employer provided housing such as use of third country nationals.
2. Pre-Proposal Conference: The Contracting Officer should discuss the importance of TIP
prevention and the requirements of the clause at the Pre-Proposal Conference if held.
3. Post Award Orientation: Discuss the importance of preventing TIP in post award orientation.
The Contracting Officer is responsible for leading the post award orientation with COR support.
The requirements of the Combating Trafficking in Persons clause and Contractor efforts to
comply should be an agenda item for every post award Contractor briefing. This ensures that all
parties are aware of their responsibilities. The Contracting Officer should incorporate the
following into the list of items on which the Contracting Officer briefs the contractor during this
orientation:
    a.	 Discuss the importance of preventing TIP: Advise the Contractor that TIP is a highly
        visible issue that the U.S. Government feels strongly about;
    b.	 Zero tolerance policy: Tell the Contractor that Government has a zero tolerance policy.

                                                30

                                        UNCLASSIFIED
                                       UNCLASSIFIED


       Every instance of trafficking will be examined and could result in termination of
       employees or subcontractors, suspension of contract payments or contract termination;
   c.	 Brief employees: Insist that the Contractor brief employees on Trafficking in Persons
       prohibitions. This briefing should include the nature of trafficking, where it takes place,
       how to recognize it, the prohibition of the use of forced labor, and the importance of not
       procuring commercial sex which provides a financial environment for perpetuating TIP.
       Ask the Contractor for a copy of the briefing for the contract file;
   d.	 No commercial sex: Explain that the Contractor should tell his or her employees that they
       cannot procure commercial sex. Stress that the Contractor must discipline any employee
       procuring commercial sex and should report the incident to the Contracting Officer.
       Contracting Officers will review incidents to determine if contractor disciplinary actions
       are sufficient;
   e.	 Contractor should provide adequate housing plan: Explain that Contractors who provide
       worker accommodations should ensure these accommodations meet local host nation
       labor and health laws and are clean and adequate. Contractors submitting a housing plan
       in response to 1(d) above should promptly submit to the COR any material updates to the
       plan occurring during contract performance;
   f.	 Withhold passports or visas: Tell the Contractor that they may not withhold employee
       passports or visas without employee permission because this may have the effect of
       preventing the free movement of employees who no longer want to work for the
       Contractor. It has the appearance of bonded labor which is prohibited;
   g.	 Observe local labor laws: Contractors should understand the local labor laws. The
       Contractor should explain how they will keep abreast of changes in the laws;
   h.	 Clear explanations for salary deducts: The Contractor should explain deductions from
       wages. Unexplained wage deductions may cause employees to owe more than they make
       and force them to work for the contractor to pay off debts; and
   i.	 Briefing subcontractors: TIP requirements also apply to subcontractors. Prime
       Contractors should brief subcontractors on TIP requirements and must flow the TIP
       clause down to subcontractors.
4. 	Contractor Monitoring:
   a.	 Verify the Contractor does not hold employees’ passports and visas: Employee mobility
       may be severely limited if an employer holds the employee’s travel documents. This
       activity may also be in violation of local labor laws. CORs should determine if the
       contractor is holding travel documents by interviewing employees during site visits to the
       work location;
   b.	 Ensure Contractor doesn’t use work permits or physical force or threats to compel labor
       or obtain sexual activity: The COR should use locally engaged staff or others with
       knowledge of other languages to engage contractor employees who cannot communicate
       effectively in English in their own native language in order to determine if coercion or
       threats are being used;


                                                31

                                       UNCLASSIFIED
                                   UNCLASSIFIED


c.	 Determine that Contractor is knowledgeable about local labor laws: This assessment can
    be performed at the post award meeting and periodically through discussions with
    contractor management as work progresses. It is the Contractor’s responsibility to obtain
    this information from the host country, not the COR’s;
d.	 Verify that workers are informed about labor policies: Verification can be obtained
    through interviews with Contractor employees;
e.	 Verify that Contractor is providing advice of salary deductions through periodic review:
    Employees who are not informed on the nature of salary deductions may find themselves
    in situations similar to bonded labor by owing more than they make. Verify that
    employees have the information they need to understand salary deductions;
f.	 Verify that Contractor is briefing employees on the requirements of the Trafficking in
    Persons clause: This briefing is a requirement of the Trafficking in Persons clause. The
    COR should interview Contractor management as well as select employees to verify
    compliance. The COR should obtain a copy of the Contractor’s briefing materials;
g.	 Verify that the Contractor is briefing subcontractors and flowing the TIP clause down
    through subcontracts: Ask the Contractor to identify any subcontracts and show that the
    subcontracts contain the TIP clause. Have the Contractor provide a copy of briefing
    materials provided to subcontractors;
h.	 Obtain information on employer furnished housing and periodically visit to assess
    adequacy: The adequacy of self selected housing is the responsibility of the employee.
    Employer furnished accommodations represent an expenditure of Government funds that
    should not be exploitative. Where housing is employer provided, particularly to third
    country national employees, CORs should obtain information on the location and nature
    of the housing. CORs will then better understand the Contractor’s costs and should visit
    the housing periodically to ensure adequacy. Any concerns or requests for corrective
    action should be coordinated through the Contracting Officer to avoid any potential
    claims;
i.	 Obtain information on Contractor violations: The Contractor is required to inform the
    Contracting Officer of any information that alleges a Contractor or subcontractor
    employee engaged in conduct that violates TIP requirements. CORs should communicate
    with the Contracting Officer on any compliance issues; and
j.	 Audit support: CORs may work with their Contracting Officer to contract with an audit
   firm to assist in implementing TIP monitoring responsibilities.




                                            32

                                   UNCLASSIFIED
                              UNCLASSIFIED



                                                                                      Appendix D
                    Embassy Abu Dhabi Response

                                                  Embassy ~f Ihe United Siaies of America



                                             September 9, 2012



Mr. Harold W. Geisel
Deputy Inspector General
Washington, DC




Dear Mr. Geisel,

Enclosed please find US Embassy Abu Dhabi's written response to
Recommendation 1 and Recommendation 2 of the draft report Compliance
Following Review of Department oJState Actions To Reduce the Risk oj
Trafficking in Persons Violations in Four States in the Cooperation Council Jor the
Arab States oJthe Gulf



Embassy Abu Dhabi appreciates the cooperation and assistance provided by your
staff during this review. If you have any questions, please contact (b) (6)
(b) (6) at +971-2-414 -(b) (6)




1. Victor Hurtado
Charge d' Affaires, a.i.
Embassy Abu Dhabi

Enclosure : As stated
cc: (b) (6)




                                        33

                              UNCLASSIFIED
                               UNCLASSIFIED





                                      Embassy of the United States of America
                                      Abu Dhabi, United Arab Emirates


                                                   September 9, 2012

MEMORANDUM


TO:                OIG/FO Evelyn R. K lemstine

FROM:              Embassy Abu Dhabi - Charge d ' Affairs Hurtado

SUBJECT:           Middle East Region Office report of Trafficking in Persons
                   (TIP)- Gulf Region

REF:               Office of Arabian Peninsula email dated August 22, 2012

PURPOSE: As a participating entity for Recommendation 1 and 2 in the OIG draft
evaluation report on the Middle East Region Office report of Trafficking in
Persons (TIP) -Gulf Region, Embassy Abu Dhabi offers the following responses.


Recommendation 1: OIG reconunends that Embassy Abu Dhabi establish and
implement a monitoring process for service contracts to ensure compliance with
host-country labor laws and contractor-provided housing plans.

Embassy Abu Dhabi Response:

Department of State contracts require contractors to comply with local laws and
regulations. Post is concerned that taking on responsibility for monitoring and
"ensuring compliance" with host-country labor Jaws will result in the contractors
relying on post for the currency and interpretation of local law. Tt is beyond the
capabilities of Post's Contracting Officer Representatives to identify all current
host country labor laws and to monitor all service contracts to ensure compliance.
Similar domestic requirements for contractors to comply with labor laws utilize a
multitude of federa l and state agencies from OSHA to the Department of Labor to
ensure compliance. Post recommends that compliance with local law be an




                                        34 


                               UNCLASSIFIED

                               UNCLASSIFIED





element of the post award orientation meeting with the contractor being
responsible for advising the Contracting Officer's Representative of their
knowledge and interpretation of host-country labor laws.

Recommendation 2: OIG recommends that Embassy Abu Dhabi establish a
process to ensure that statements of work for service contracts include
requirements that contractors should provide detailed descriptions of housing
acconunodations for foreign workers; provide workers with standard contracts in
English and workers' native languages that include policies on wages, overtime
rates, allowances, salary increases, the contract tenn, leave accrual, and other
personnel matters; provide workers with written inJonnation, in workers' native
languages, on relevant United Arab Emirates labor laws; and provide workers with
written infonnation, in workers' native languages, about the U.S. Govemment's
zero tolerance policy toward trafficking in persons.

Embassy Abu Dhabi Response:

Embassy Abu Dhabi will follow AQM's lead on including language in future
solicitations requiring the above. Embassy Abu Dhabi will provide information to
contractors on the U.S. Govenunent's zero tolerance policy once the Department
provides these documents to Post in the required languages.

Commercial companies registered in the VAE are required to submit a variety of
documents on a yearly basis demonstrating their compliance with local labor,
safety and other laws in order to renew their commercial license. Documentation
is substantial and includes areas such as housing accommodation, payroll by EFT,
medical insurance, company safety record, etc. As part of the solicitation process,
companies are required to provide a copy of their current commercial license
indicating to post that they are in full compliance with local labor and other laws.
Post requires a copy of their current license prior to award and renewal of a
contract.




                                        35 


                               UNCLASSIFIED

                            UNCLASSIFIED



                                                                                 Appendix E
                Embassy Kuwait City Response

                                       Embassy of the United States of America



                                       Kuwait City, Kuwait
                                       August 30,2012


UNCLASSIFIED
MEMORANDUM

TO:          Evelyn Klems tine     (b) (6)
            OIG/AUD         (b) (6)            '
FROM:        Calvin D. Levo
          (b) (6)


SUBJECT: Embassy Kuwait Response to OIG Recommendations

This memo is in response to your request for our comments and agreement on the
recommendations outlined with your draft report, Compliance Fo/lowup Review of
Department ofState Actions To Reduce the Risk of Trafficking in Persons
Violat ions in Four States in the Cooperation Council for the Arab States of the
Gulf Monitoring provides an indication of progress against goals and indicators of
performance, reveals whether des ired results are occurring, and confinns whether
implementation is on track. In general, the results measured are the direct and near­
term consequences of program act.ivities, whereas evaluations document the
ac hievement of outcomes and results and, in some cases, the value of continuing the
investment. This is the right thing to do, and also the smart and strategic thing to
do.

Embassy Kuwait agrees to the recommendations made w ithin the report. Please
note our responses to your recommendations:

Recommendation 3. OIG recommends that Embassy Kuwait City establish and
implement a monitoring process for service contracts to ensure that contractors
comply with host country labor laws and contractor-provided housing plans.

Response - Embassy Kuwait now has a fully functional monitoring policy as per
PIB 2011-09, PIB 2012-10, and the OIG recommendations.



                                      Page I of 2




                                      36

                            UNCLASSIFIED
                            UNCLASSIFIED





Recommendation 4. OIG recommends that Embassy Kuwait City establish a
process to ensure that statements of work for service contracts include requirements
that contractors should provide detailed descriptions of housing accommodations
for foreign workers and provide workers with written information, in workers'
native languages, on relevant Kuwaiti labor laws.

Response - Embassy Kuwait policy on statements of work for service contracts
now includes the necessary language as per PIB 20 11-09, PIB 2012-10, and the
OIG recommendations.

       Thank you for the opportunity to comment on the Report. We would also like
to extend our thanks to your staff for the professional and collaborative manner in
which they conducted the audi t. Few people li kely realize the time and effort that
go into conducting such important audits as we work to demonstrate our
commitment to fu lly support Department policies on Trafficking in Persons.

Attachments:

   a. Contracting Officer and Contracting Officer Representative (COR)
      Responsibilities for Monitoring Trafficking in Persons.
   b. Recruitment of Thi rd Country Nationals for Performance on Department of
      State Contracts
   c. Procurement Information Bulletin No. 201 1-09
   d. Procurement Information Bulletin No. 2012-10


CC:
(b) (6)
(b) (6)
(b) (6)                              - Kuwait




                                      Page 2 of 2




                                     37 


                            UNCLASSIFIED

                                        UNCLASSIFIED



                                                                                                  Appendix F
                              Embassy Muscat Response

                                                 Embassy of the United States of America



                                                     Muscat, Sultanate of Oman
                                                        August 29, 20 12




Mr. Harold W. Geisel
Deputy Inspector General
Office of the Inspecto r General

Dear Mr. Geisel:

         Embassy Muscat carried out a thorough review of the draft "Compliance Followup
Review of Department of State Actions to Reduce the Risk of Trafficking in Persons Violations
in Four States in the Cooperation Council for the Arab States of the Gulf," received from your
office and dated August 16,2012. We acknowledge and appreciate DIG addressing OUf previous
concerns about grouping all posts together for all recommendations and responses. Separating
the actiOIL'i significantly clarifies the steps that we need to take individually, and allows us to
focu s on only those arcas that need Post's specific altcnlion.

        Attached are detailed responses to Reconunendation 5 and Recommendation 6 - those
reconunendations that apply to Embassy Muscat. We have taken significant steps to address
both areas of concern, and will continue to do so going forward.

          Post point of contact is (b) (6)                          at +968-2464-(b) (6) or
(b) (6)        @statc. l1ov.


                                             Sincerely,




                                             W. Johann Schmonsees
                                             Charge de Affaircs, a.i.
                                             U.S. Embassy Muscat


Attachment: Embassy Muscat Response to TIP Audit




                                                38

                                        UNCLASSIFIED
                                    UNCLASSIFIED





                             O IG Response- Embassy Muscat




Report Number and Title:   AUD-MERQ-12-XX, August 2012
                           Report of Inspection: Compliance Followup Review of Department of
                           State Actions to Reduce the Risk of Trafficking in Persons Violations in
                           Four States in the Cooperation Council for the Arab States of t he Gulf

Recommendation #5:         OIG recommends that Embassy Muscat establish and implement a
                           monitoring process for service contracts to ensure that contractors
                           comply with host country labor laws and contractor-provided housing
                           plans.

Management Decision:       Agree

Agreement:                 Embassy Muscat has implemented a semi-annual inspection program,
                           during which the Contracting Officer or Contracting Officer's
                           Representative (COR) visits each service contractor's living quarters and
                           interviews a random sampling of contractor personnel to ensure
                           compliance with local labor standards.

                           Date of lost inspection: Aug 7, 2012. Contractor: Kalhat ljanitorial).
                           Date of next inspections: Sep 15, 2012. Contractor: GDS (gardening).
                                                     March 1, 2013. Contractor: janitorial.
                                                     March 15, 2013. Contractor: gardening.

Funds:                     n/a

Post Request:              Mark recommendation "resolved." Close recommendation Morch 15,
                           2013, upon completion of one full year review cycle.




Report Number and Title:   AUD-MER0-12-XX, August 2012
                           Report of Inspection: Compliance Followup Review of Department of
                           State Actions to Reduce the Risk of Trafficking in Persons Violations in
                           Four States in the Cooperation Council for the Arab States of the Gulf

Recommendation #6:         OIG recommends that Embassy Muscat establish a process to ensure
                           that statements of work for service contracts include requirements that
                           contractors should provide detailed descriptions of housing
                           accommodations for foreign workers; provide workers with standard




                                             39 


                                    UNCLASSIFIED

                               UNCLASSIFIED





                       contracts in English and workers' native languages that include policies
                       on wages, overtime rates, allowances, salary increases, the contract
                       terms, leave accrual, and other personnel matters; provide workers with
                       written information, in workers' native languages, on relevant Omani
                       labor laws; and provide workers with written information, in workers'
                       native languages, about the U.S. Government's zero tolerance policy
                       toward trafficking in persons.

Management Decision:   Agree

Agreement:             Embassy Muscat has informally requested service contractors to
                       incorporate detailed information as listed above in the information
                       packet provided to newly-hired or re-contracted workers. Both service
                       contractors are making efforts to comply. For future solicitations, post
                       will include such action as a mandatory requirement for contract award
                       in so/idtation packages for service contracts.

                       Manual laborers in Oman come primarily from Indio, Pakistan, Sri Lanka,
                       and Bangladesh. There are 26 officially recognized languages in these
                       four countries, and literally hundreds of unofficial languages. In order to
                       make this a feasible requirement, Embassy Muscat will require
                       translation into the following f ive languages: English, Hindi, Urdu,
                       Bengali, and Sinhala, which will cover the majority of the potential
                       contracted labor force.

Funds:                 n/a

Post Request:          Mark recommendation "resolved." Close recommendation upon
                       completion of the next solicitation for post's service contracts (not later
                       than May 19 and June 30, 2013, respectively).




                                         40 


                               UNCLASSIFIED

                                   UNCLASSIFIED



                                                                                                 Appendix G
          Office of the Procurement Executive Response

                                                        United States Department of State

                                                        Washington, D.C.    20520



August 28,2012


MEMORANDUM

TO:           OIGAUD - Evelyn R. Klemstine

FROM:         AlOPE- Corey M. Rindner       ~ "" . ~
SUBJECT: Comments on Draft Report of Audit Compliance Follow up Review of
Department of State Actions to Reduce the Risk of Trafficking in Persons Violations in Four
States in the Cooperation Council for the Arab States ofthe Gulf AUD-MERO- 12-XX August
2012

Below is AlOPE' s response to Recommendations IO and 11 of the subject Audit report. (b) (6)
(b) (6) is the point of contact on these recommendations and can be reached on 703-875-(b) (6)


Recommendation 10: OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, clarify guidance on passport retention found in Procurement lnfonnation
Bulletin 2012- 10, "Contractor Recruitment of Third Country Nationals," to ensure that
Department of State contracts do not authorize a contractor to engage in a practice that is
otherwise illegal in a given country.

Response: Concur. Guidance will be clarified.


Recommendation 11: OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, revise Procurement Information Bulletin 2011-09, "Combating
Trafficking in Persons," to make the guidance mandatory so that contracting officer's
representatives are required to implement the monitoring strategy as stated in the Procurement
lnfonnation Bulletin.

Response: Concur. Guidance will be clarified.




                                              41

                                   UNCLASSIFIED
                                    UNCLASSIFIED




Major Contributors to This Report

Carol Gorman, Deputy Assistant Inspector General
Middle East Region Operations
Office of Audits

Sam Bernet, Director
Middle East Region Operations
Office of Audits

Carl Gipson, Management Analyst
Middle East Region Operations
Office of Audits

Dr. Yvonne Athanasaw, Management Analyst
Middle East Region Operations
Office of Audits

W. Preston Jacobs, Management Analyst
Middle East Region Operations
Office of Audits




                                            42

                                    UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

